U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




  International Trade Administration


           FY 2007 FISMA Assessment of
                   Core Network General
               Support System (ITA-012)
  Final Inspection Report No. OSE-18840/September 2007




                      PUBLIC RELEASE



                               Office of Systems Evaluation
                                  OIG FY 2007 FISMA Assessment




 Listing of Abbreviated Terms & Acronyms
   C&A                                            Certification and accreditation
   IT                                             Information technology
   ISA                                            Internet Security Acceleration
   OMB                                            Office of Management and Budget
   FISMA                                          Federal Information Security
                                                  Management Act of 2002
   PIX                                            Private Internet Exchange
   RADIUS                                         Remote Authentication Dial-in User
                                                  Server
   SSL                                            Secure Sockets Layer
   VPN                                            Virtual Private Network




 Synopsis of Findings Both Positive and Requiring
 Management Attention
      •   Effective assessment process provides a clear understanding of remaining
          vulnerabilities and status of system security controls.
      •   Components outside of the accreditation boundary that provide security controls for
          the system were not evaluated.
      •   System contingency plan and contingency testing are inadequate.

 Conclusions
    • Certification testing adequately assessed the required security controls.
    • Certification activities provided sufficient basis for authorizing official to make a
       credible, risk-based decision to approve system operation.



Summary of ITA’s Response and OIG Comments

ITA concurred with all of our recommendations and identified actions it has taken or plans to take
to address them. The actions described are responsive to our recommendations. ITA’s written
response is included in its entirety as appendix B of this report.




                                              Page 1
                                     OIG FY 2007 FISMA Assessment



   Findings and Recommendations



     1. Effective Assessment Process Provides A Clear Understanding of
     Remaining Vulnerabilities and Status of System Security Controls.
         •   The assessment of ITA security controls was based on well defined procedures and
             expected results.

         •   Clear assessment results were provided for each assessment procedure.
                 o Clarity and credibility of results is greatly enhanced because results data was
                     provided for controls that were assessed by examination or manual testing.
                 o Identification of the individual interviewed and summary of their response
                     demonstrated that assessments based on interview involved the correct
                     system owner staff and asked relevant and appropriate questions.

         •   By clearly defining assessment procedures and expected results, and thoroughly
             documenting assessment results the certification agent could accurately determine
             which security controls are implemented correctly, recommend specific corrective
             actions, and clearly present to the authorizing official the risks associated with the
             remaining vulnerabilities.

         •   Well documented test results assist in effective vulnerability mitigation because the
             system owner has a clear record of specific system vulnerabilities.



ITA had no comments on this finding.




                                                 Page 2
                                     OIG FY 2007 FISMA Assessment


 2. Components Outside of The Accreditation Boundary that Provide Security
 Controls For the System Were Not Evaluated.
     •   The system security plan and the security test and evaluation report describe the following
         security controls and components that are outside the accreditation boundary:
            o AC-2 (Account Management): RADIUS is the centralized mechanism for managing
                  system administrator accounts for the edge router and PIX firewall.
            o AC-13 (Supervision and Review): The external switch is protected by other boundary
                  devices at a higher level in the network general support system.
            o AC-20 (Personally Owned Information Systems): Authorized users access the ITA
                  network remotely via a Juniper SSL VPN appliance and system administrators
                  access the ITA network via a Microsoft ISA server.

     •   During a follow-up meeting, ITA explained that the components are part of the ITA Network
         Security general support system, which was currently undergoing C&A and had not been
         tested at the time the ITA Core Network was undergoing C&A.

     •   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information
         Systems, defines the application of security controls from one system to another as common
         controls. The results from the assessment of common controls can be used to support the
         security C&A processes of the system where that control has been applied. However,
         because the devices providing these security controls had not been assessed, there are no
         assessment results to support the use of that control in the ITA Core Network.



 Recommendation

 ITA should ensure that all components that implement security controls for a system are assessed
 prior to or during certification and accreditation.


ITA’s Response

ITA concurred with this recommendation and stated that it will ensure that any components that are
not a part of an information system’s accreditation boundary are assessed prior to completing the
certification and accreditation for that system. ITA also stated that controls AC-2 (Account
Management) and AC-20 (Personally Owned Information Systems) have been implemented and
tested for all of its information systems.

OIG Comment

ITA’s corrective actions are responsive to our recommendation.




                                                 Page 3
                                      OIG FY 2007 FISMA Assessment




 3. System Contingency Plan and Contingency Testing are Inadequate
      •   An annual test of the contingency plan was not conducted.
              o Certification test results indicate that the last test of the system contingency plan was
                 conducted in June 2006 and note that the contingency test results can not be found.
              o The certification test results also indicate that the contingency plan was not used as
                 the basis to assess system contingency readiness. Instead, the assessment was
                 conducted using Federal Emergency Management Agency defined tests and
                 exercise scenarios.

      •   The contingency plan does not address the procedures and activities required to restore
          operations after a disruption or failure as required by Department policy and NIST SP 800-53.
             o The contingency plan was created in January 2007 and addresses ITA’s Enterprise
                  Network system, which includes the Core Network system.
             o System recovery procedures are referenced, but not included in the plan. ITA
                  subsequently provided the OIG a document titled Network Shutdown Procedures and
                  Network Restore Procedures. However, the document only addressed procedures for
                  network shutdown and restart but does not provide other important procedures to
                  restore operations after a disruption or failure.
             o The contingency plan also fails to specify the emergency scenarios that require
                  annual testing.

 Recommendations

 ITA should ensure that:

          1. Procedures and activities to restore operations after a failure or disruption are
             incorporated into the system contingency plan in accordance with Department policy.

          2. ITA conducts annual contingency plan testing in accordance with Department policy and
             that contingency test documentation contains detailed information regarding the scope,
             test procedures, test scenarios, and a summary of the results.




ITA’s Response

ITA concurred with these recommendations and stated that it is developing procedures to restore
operations after a failure or disruption of its systems and that changes to operations are being
instituted to ensure that network operations can be restored after a failure or disruption. ITA noted
that the test of its Enterprise Network Contingency Plan will be completed by the end of calendar year
2007 and will include detailed agency-defined test scenarios and a summary of all test results.

OIG Comment

ITA’s corrective actions are responsive to our recommendation.




                                                  Page 4
                                  OIG FY 2007 FISMA Assessment

Appendix A: Objectives, Scope, and Methodology

To meet the FY 2007 FISMA reporting requirements, we evaluated ITA’s certification and accreditation
for the core network general support system (ITA-012).
Security certification and accreditation packages contain three elements, which form the basis of an
authorizing official’s decision to accredit a system.

    •   The system security plan describes the system, the requirements for security controls, and
        the details of how the requirements are being met. As such, the security plan provides a basis
        for assessing security controls. Per Department policy, the security plan also includes other
        documents such as the system risk assessment and contingency plan.
    •   The security assessment report presents the results of the security assessment and
        recommendations for correcting control deficiencies or mitigating identified vulnerabilities. This
        report is prepared by the certification agent.
    •   The plan of action & milestones is based on the results of the security assessment. It
        documents actions taken or planned to address remaining vulnerabilities in the system.

Commerce’s IT Security Program Policy and Minimum Implementation Standards requires that C&A
packages contain a certification documentation package of supporting evidence of the adequacy of the
security assessment. Two important components of this documentation are:

    •   The certification test plan, which documents the scope and procedures for testing (assessing)
        the system’s ability to meet control requirements.
    •   The certification test results, which is the raw data collected during the assessment.

To evaluate the C&A package, we reviewed all components of the package and interviewed ITA staff to
clarify any apparent omissions or discrepancies in the documentation and gain further insight on the
extent of the security assessment. We give substantial weight to the evidence that supports the rigor of
the security assessment when reporting our findings to OMB.

We used the following review criteria:
   • Federal Information Security Management Act of 2002 (FISMA)
   • U.S. Department of Commerce, IT Security Program Policy and Minimum Implementation
      Standards
   • NIST’s Federal Information Processing Standards (FIPS)
           o Publication 199, Standards for Security Categorization of Federal Information and
                Information Systems
           o Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   • NIST Special Publications:
           o 800-18, Guide for Developing Security Plans for Information Technology Systems
           o 800-37, Guide for the Security Certification and Accreditation of Federal Information
                Systems
           o 800-42, Guideline on Network Security Testing
           o 800-53, Recommended Security Controls for Federal Information Systems
           o 800-70, Security Configuration Checklists Program for IT Products

We conducted our evaluation in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency in
January 2005.




                                               Page 5
